    NATIONAL CREDIT UNION ADMINISTRATION

              OFFICE OF INSPECTOR GENERAL



           NCUA FINANCIAL STATEMENT AUDITS
                         FOR

                  OPERATING FUND
               SHARE INSURANCE FUND
            CENTRAL LIQUIDITY FACILITY
         COMM. DEVELOPMENT LOAN PROGRAM




              For the year ended December 31, 1999

       Audited Financial Statements               Audit Report Number

            NCUA Operating Fund                       OIG-00-01
  National Credit Union Share Insurance Fund          OIG-00-02
            Central Liquidity Facility                OIG-00-03
Community Development Revolving Loan Program          OIG-00-04



                            March 31, 2000



                        _______________________
                               Frank Thomas
                             Inspector General
            NATIONAL CREDIT UNION ADMINISTRATION

            AUDIT OF THE 1999 FINANCIAL STATEMENTS


                              TABLE OF CONTENTS




                                                                Page/Tab
Executive Summary                                                  1

Observations and Recommendations                                   2

Audit Report Follow-up                                            10

Financial Audit Reports:

       NCUA Operating Fund (OIG-00-01)                             Tab 1

       National Credit Union Share Insurance Fund (OIG-00-02)      Tab 2

       Central Liquidity Facility (OIG-00-03)                      Tab 3

       Community Dev. Revolving Loan Program (OIG-00-04)           Tab 4
                                    EXECUTIVE SUMMARY


                                 The National Credit Union Administration (NCUA) Office of Inspector
 PURPOSE AND SCOPE General contracted with the independent public accounting firm of Deloitte &
Touche to perform the financial statement audits of the NCUA Operating Fund, the Share Insurance Fund,
the Central Liquidity Facility, and the Community Development Revolving Loan Program, for the year
ended December 31, 1999.

The purpose of the audits is to express an opinion on whether the financial statements are fairly presented.
The independent firm also reviewed the internal control structure and evaluated compliance with laws and
regulations, as part of their audit.

The audits were performed in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States.
The NCUA Office of Inspector General reviewed the independent firm’s workpapers, as part of its
oversight function.

                                                  Deloitte & Touche and their subcontractors, Brown &
FINANCIAL STATEMENT CONTRACT
                                                  Company contracted with the Inspector General in May
1996 to perform the financial statement audits mentioned above. The contract was for 1996, with four
option years. The Assistant Inspector General for Audits is the contracting officer’s technical representative
for this contract.

                       Deloitte & Touche expressed unqualified opinions, stating that the financial
AUDIT RESULTS
                       statements present fairly, in all material respects, the financial position of the NCUA
Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Program, at December 31, 1999, and the results of operations for the year then ended.

Although Deloitte & Touche does not express an overall opinion of the Funds’ compliance with laws and
regulations, their testing of compliance did not disclose any significant deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses in their review of the
Funds’ internal control structures pertinent to financial reporting. However, during the performance of the
audit, we developed the following recommendations related to internal control over financial reporting and
certain observations and recommendations on other accounting, administrative, and operating matters.




                                                      1
                    OBSERVATIONS AND RECOMMENDATIONS


CHANGE CONTROL PROCEDURES

Observation:

NCUA has a process in place to document, track, and approve changes to applications, networks, and
access security. However, this process is not formally documented. Without proper and consistent change
control procedures, changes to the various systems may be made without specific approval from managers.
As a result, errors may be introduced in the production environment causing unreliable processing results or
unintentional loss or alteration of data.

Recommendation:

We recommend that NCUA formalize their existing process which includes change requests, approvals,
assignment of tasks to staff, testing, and maintaining documentation of changes.

ADMINISTRATION AND SECURITY PROCEDURES

Observation:
An overall information security policy, including security standards, has been defined for NCUA’s
computing environment. These standards include password restrictions, account lockouts,
userid/passwords for all logins, and general access controls, virus protection, and Internet/Email usage.
However, NCUA does not have formal procedures that document the administration, configuration, and
security authorization processes for its network and SAP environments. Formal security and system
administration procedures help to ensure the consistent application of company security policies, reliable
systems processing and adequate safeguarding of the company’s information assets. Without these formal
procedures, the organization runs the risk of not being able to effectively configure, administer and monitor
their systems environment in the manner desired by management.

Recommendation:
We recommend that NCUA develop and implement procedures for administering and maintaining its
network and SAP environments. These procedures should address:

    •   Granting and removing access privileges
    •   Administrator/Super-user privileges
    •   Data Ownership
    •   Server backups
    •   Batch Process Administration
    •   Naming conventions for user accounts
    •   Implementation of Anti-virus Software
    •   Remote Access Configuration and Privileges



                                                      2
SAP SECURITY WEAKNESSES

Observation:

We examined several security aspects of the SAP computing environment, which is the primary financial
application for NCUA. We noted the following detailed security concerns:

    •   Three SAP user accounts had inappropriate access privileges, which permit access to all SAP
        functionality and processes;
    •   Three SAP System Parameter values were inconsistent with recommended SAP security practices;
    •   The SAP "SU01-SU03" Transaction codes for performing critical security administration functions
        were granted to users in the Finance and Human Resources Departments that had limited system
        administration job responsibilities;
    •   Several users were identified with unrestricted access to critical and non-critical ABAP programs
        using transactions "SE38/SA38”; and
    •   Three system configuration tables were not being logged for unauthorized or inappropriate changes.


If users are granted access beyond the minimum level necessary to perform their job functions, segregation
of duties may be compromised. In addition, this could result in unauthorized or invalid transactions or in a
loss of data, assets or other resources.

Recommendation:

We recommend that NCUA review SAP user access and security parameters to ensure that SAP data and
system processes are adequately secured and controlled. Specifically, this review should include super-user
access privileges, system parameter values, system administration access, and SAP program and table
access. This observation was carried forward from the prior year.

NETWORK CONFIGURATION

Observation:
Single points of failure have not been eliminated in the design and configuration of the NCUA network. If
the frame relay service, which provides the only means of network connectivity to NCUA regional offices,
becomes unavailable, there are no alternate network paths or connections between the NCUA
headquarters and the regional offices. Without secondary connectivity the regional offices will not be able to
access critical application systems and data that reside on the servers in Alexandria. Without redundant
connectivity to remote network locations, organizations become vulnerable to single points of failure in their
network. Any failure on a network designed in this manner results in centralized systems and data being
inaccessible to remote network users and may limit the organization’s ability to perform critical business
processes.




                                                      3
Recommendation:
As part of the organization’s upcoming network redesign effort, NCUA should evaluate the feasibility of
implementing an alternate network path between the systems at the Alexandria headquarters and users in the
NCUA regional offices.

FIXED ASSETS

Observation:

NCUA maintains two Asset Master files in the fixed asset and inventory modules within the accounting
system. The serial number, location of the asset and the responsible party are recorded in the inventory
module Asset Manager. The detail dollar amount for each fixed asset is recorded in the fixed asset module
Asset Manager, which agrees with the amounts recorded in the general ledger. The two Asset Manager files
have not been reconciled. As a result, there is no audit trail to match the fixed assets observed during a
physical count with the recorded fixed assets in the general ledger.

The NCUA Property Management Procedures [NCUA 8054 (M 1702)] were not being followed. Under
Section 1 – Identification of Property, each item of nonexpendable agency property is to be identified by a
property control serial number, which is affixed by means of a metal tag. We observed that a number of
fixed assets were missing tags. Under Section 4 – Inventory of Property, an inventory of property is to be
performed at least once annually. We noted that an inventory of the fixed assets had not been performed in
1999.

Recommendation:
We understand that revisions to the fixed asset inventory system are in process that will facilitate the
reconciliation of the fixed assets inventory information with the amounts recorded in the general ledger. We
recommend that NCUA update its Property Management Procedures accordingly, including the procedures
for periodic physical inventory counts and the related reconciliations.

ACCRUALS

Observation:

During our testing of the adequacy of year-end accruals, we noted several instances where invoices for fixed
asset items received prior to year-end had not been accrued. Due to the decentralized nature of the
processing of accounts payable activity at the department level, there may have been inconsistent application
of the guidelines provided for the year-end processing.

Recommendation:
We recommend that the instructions for the year-end processing of vendor invoices and other transactions
for which accruals may be required be clarified and expanded as necessary to ensure consistent
implementation.


                                                     4
CURRENT STATUS OF PRIOR-YEAR COMMENTS

BUSINESS CONTINUITY PLAN

We reviewed the Business Continuity Plan for NCUA. During this review, we noted that the
Octel Voice Systems have not been addressed.

Status:

Corroborative discussion with Security/Operations and review of documentation revealed that
NCUA revised the Business Continuity Plan to address restoration of the voice mail system.

PRODUCTION DATA ACCESS

Programmers have update access to the production data and system controls.

Status:

Windows NT administrator privileges appeared to be limited to only Office of Chief Information
Officer (OCIO), formerly the Office of Technology and Information Services, personnel with
network administration and support, hardware support, or help desk responsibilities. No
programmers were identified with administrator privileges.

FIREWALL MONITORING

Although NCUA maintains a firewall security log, monitoring of the firewall security log is not
taking place.

Status:

An online review of the firewall activity log is being performed by the Security Officer on a daily
basis. Any exceptions or questionable activity is brought to the attention of the Network
Administrator and the Director of Systems and Customer Service. Formal procedures
describing this review process have been documented in the Information Technology Security
Procedures. These procedures appear adequate to detect unauthorized access attempts
through the network firewall.

ACCOUNT SECURITY

During testing, we noted that NT system security functions do not adequately secure the system
environment. We determined that the NT servers’ user permissions and rights were set to the
default settings, which allow for actions to be taken without being logged. In addition,
password and account lockout policies are not in effect allowing users to login without a
password and with several failed attempts. We also noticed that some of the global account
audit settings may not be adequate for this environment. Several inactive user accounts may still



                                                 5
be on the system, although the employees are no longer employed by NCUA. No procedures
are in place to ensure the consistency of user logon ID’s across the NT system.

Status:

Password restrictions were set requiring minimum password length to be six characters and
requiring passwords to be unique for every four password changes. Windows NT logging
functionality was also enabled. These settings appear to be appropriate to provide adequate
security and are consistent with established computer security practices. However, password
expiration periods and account lockouts were not required for NT accounts. No inactive user
accounts were noted during our current procedures.

After last year’s audit, the administrator set the password expiration period to 120 days and the
account lockout to three failed login attempts, which is consistent with NCUA’s new security
policy. However, the rollout of the WIN2000-based computers to all NCUA employees
created user account lockouts due to invalid login attempts. Login conflicts resulted from having
to maintain both the Active Directory and NT Registry, which are the security structures for
WIN2000 and Windows NT respectively, until all users are issued WIN2000 computers.
These conflicts resulted in numerous user lockouts. As a result, the password expiration and
account lockout settings were disabled until the rollout is completed in May 2000 or until
Microsoft can help resolve the issue. When the issue is resolved or the rollout is complete, the
settings will be returned to those values documented in the security policies and procedures.
The rollout should also address the issue regarding inconsistent naming conventions for logon
IDs.

PHYSICAL SECURITY

During testing, we observed cardboard boxes scattered on data center floor, and those boxes
were blocking an emergency exit. We also noticed the existence of such boxes within some of
the telephone/hub rooms. In addition, we noted that several of the hub rooms were not kept
cool.

Status:

The computer room appeared to be neat and orderly based on walkthrough and observation.
In addition, all computing equipment appeared to be maintained in areas that were properly
temperature-controlled.

SAP SECURITY AND ADMINISTRATION POLICIES

NCUA does not have a formal set of Administration policies and procedures for the SAP
application and at present the current security settings are not adequately set to secure the
application.




                                                 6
Status:

Security standards have been defined for system security parameters on all NCUA systems,
including SAP. These standards include password restrictions, account lockouts,
userid/passwords for all logins, general access controls, and granting and terminating access.
However, NCUA still does not have formal procedures that document the administration of the
SAP application. In addition, we noted the following detailed security concerns:

   •      Three SAP user accounts had inappropriate access privileges, which permit access to
          all SAP functionality and processes;
   •      Three SAP System Parameter values were inconsistent with recommended SAP
          security practices;
   •      The SAP "SU01-SU03" Transaction codes for performing critical security
          administration functions were granted to users in the Finance and Human Resources
          Departments that had limited system administration job responsibilities;
   •      Several users were identified with unrestricted access to critical and non-critical ABAP
          programs using transactions "SE38/SA38”;
   •      Three system configuration tables were not being logged for unauthorized or
          inappropriate changes.

If users are granted access beyond the minimum level necessary to perform their job functions,
segregation of duties may be compromised. In addition, this could result in unauthorized or
invalid transactions or in a loss of data, assets or other resources. We recommend that NCUA
review SAP user access and security parameters to ensure that SAP data and system processes
are adequately secured and controlled. Specifically, this review should include super-user
access privileges, system parameter values, system administration access, and SAP program
and table access. This observation was carried forward to the current year.

During 1998 we noted that the BAD Password table (Table “USR40”) was not populated with
user passwords to prevent users from utilizing an easily guessed password. Corrections were
made in 1999.

SYSTEMS DEVELOPMENT LIFE CYCLE

NCUA OCIO management maintains informal SDLC procedures and is in the process of
formalizing these procedures.

Status:

Corroborative discussion with the Director of Product Services and review of documentation
revealed that NCUA management has drafted structured SDLC procedures based on the
Software Engineering Institute’s Capability Maturity Model and tailored to NCUA’s business



                                                 7
environment. The initial draft addresses project requirements, planning, tracking, oversight,
quality assurance, and configuration management. This SDLC model appears to provide an
adequate development methodology to ensure the properly controlled acquisition, development
and implementation of new systems or changes to existing systems.

ADEQUATE OCIO RESOURCES

OCIO has several vacancies within this department. For example, an outside consultant was
hired to perform security work for NCUA.

Status:

The staffing level of the OCIO group appears adequate to support the NCUA end-users and
administrative systems. There were not an excessive number of vacancies on the organization
chart. In addition, some SAP expertise is being brought in-house instead of primarily relying on
outside consultants, which has been the case in the past.

DATA CENTER ACCESS

We noted that several individuals, approximately 20% of local personnel, have access to the
data center although this access is not necessary.

Status:

All individuals now on the access list for the data center are OCIO employees with job
responsibilities requiring this access or facilities maintenance personnel.

VIRUS PROTECTION

We noted that not all workstations are running the most recent version of the anti-virus software
containing the most recent virus definition files.

Status:

Updates of the Command anti-virus software are downloaded from the vendor’s website as
they become available. Servers are updated immediately by the network administration staff.
The updates are then stored on a public network directory accessible by all users. Email
messages are then sent out notifying all users that the updates are available and instructing them
on how to implement the updates.

SOFTWARE LICENSES

A computer policy has been developed to address the issue of software piracy; however, this
policy is not being actively monitored. During our testing we did not find any unlicensed
software.



                                                 8
Status:

No policies and procedures currently exist to prohibit unauthorized use of or installation of non-
licensed software on employee personal computers. However, NCUA developed two plans to
address the issue. For the short term, all administrative privileges allowing users to install
software will be removed on the new laptop computers currently being rolled out to all users.
This will limit installed software to only licensed versions installed by OCIO. In the future,
NCUA plans to implement software to facilitate software inventories of networked personal
computers.

NETWORK CONFIGURATION: TWO-WAY TRUST RELATIONSHIPS

NCUA’s network contains one primary domain controller (PDC), HQNT, and eight resource
domains. There are two-way trusts between these domains.

Status:

The two-way trust relationship remains between the HQNT domain, which includes all users
and servers at the Alexandria Headquarters, and the Regional office domain, which includes the
servers at the regional offices. However, the trust relationship was designed in this manner to
permit some regional office PDC servers to perform their own user authentication if they lost
connectivity with the PDC in the HQNT domain. The current domain structure and trust
relationships are currently under evaluation in conjunction with the migration to the WIN2000
operating system and the upcoming network redesign.




                                                9
                       AUDIT REPORT FOLLOW-UP


NCUA should respond to this audit report and accompanying recommendations in accordance
with the NCUA Audit Follow-up Instruction (1910.6, May 16, 1995).




                                          10
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
Financial Statements for the Years Ended
December 31, 1999 and 1998, and
Independent Auditors’ Reports
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Operating
Fund (the Fund) as of December 31, 1999 and 1998, and the related statements of revenues, expenses, and
changes in fund balance, and of cash flows for the years then ended. These financial statements are the
responsibility of the National Credit Union Administration Operating Fund’s management. Our responsibility is
to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Operating Fund as of December 31, 1999 and 1998, and the results of its
operations and its cash flows for the years then ended in conformity with generally accepted accounting
principles.

In accordance with Government Auditing Standards, we have also issued our report dated February 25,
2000, on our tests of the National Credit Union Administration Operating Fund’s compliance with certain
provisions of laws, regulations, contracts and grants, and our consideration of its internal control over financial
reporting. That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our audit.




February 25, 2000




                                                         1
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)


ASSETS                                                   1999       1998

  Cash and cash equivalents                            $ 12,695   $ 12,736
  Due from National Credit Union Share
    Insurance Fund (Note 4)                              1,618      2,129
  Employee advances                                        816        865
  Other accounts receivable                                258        113
  Prepaid expenses                                         105        164
  Fixed assets - net of accumulated depreciation
     and amortization (Note 3)                          38,704     41,233
  Employee residences held for resale                      452       -

TOTAL ASSETS                                           $ 54,648   $ 57,240


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Accounts payable                                     $ 4,109    $ 4,064
  Accrued wages and benefits                             4,390      4,864
  Accrued annual leave                                   5,860      4,952
  Accrued employee travel                                  828        735
  Notes payable to National Credit Union
    Share Insurance Fund (Note 4)                       33,161     34,574

              Total liabilities                         48,348     49,189

COMMITMENTS AND CONTINGENCIES (Notes 5, 8, and 9)

FUND BALANCE                                             6,300      8,051

TOTAL LIABILITIES AND FUND BALANCE                     $ 54,648   $ 57,240


See notes to financial statements.




                                                   2
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)


                                                        1999        1998

REVENUES:
  Operating fees                                      $ 53,884    $ 50,591
  Interest                                               1,426       1,396
  Other                                                    258         262

              Total revenues                           55,568      52,249

EXPENSES (Note 4):
  Employee wages and benefits                          42,674      35,853
  Travel                                                5,402       4,958
  Rent, communications, and utilities                   1,839       1,723
  Contracted services                                   2,096       2,532
  Other                                                 5,308       5,227

              Total expenses                           57,319      50,293

(DEFICIENCY) EXCESS OF REVENUES OVER EXPENSES           (1,751)     1,956

FUND BALANCE, BEGINNING OF YEAR                         8,051       6,095

FUND BALANCE, END OF YEAR                             $ 6,300     $ 8,051


See notes to financial statements.




                                        3
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)

                                                                        1999        1998
CASH FLOWS FROM OPERATING ACTIVITIES:
  (Deficiency) excess of revenues over expenses                       $ (1,751)   $ 1,956
  Adjustments to reconcile (deficiency) excess of
     revenues over expenses to cash provided by
     operating activities:
     Depreciation and amortization                                      3,197       3,205
     Loss on disposal of employee residences held for resale               77         162
     Miscellaneous allowances                                              10        -
  (Increase) decrease in assets:
     Due from National Credit Union
       Share Insurance Fund                                               511      (2,015)
     Employee advances                                                     49        (159)
     Other accounts receivable                                           (145)        (19)
     Prepaid expenses                                                      59         (51)
  (Decrease) increase in liabilities:
     Accounts payable                                                      45       1,441
     Accrued wages and benefits                                          (474)      2,775
     Accrued annual leave                                                 908          60
     Accrued employee travel                                               93          47
              Net cash provided by operating activities                 2,579       7,402
CASH FLOWS FROM INVESTING ACTIVITIES:
  Purchases of fixed assets and employee residences held for resale    (1,884)     (2,016)
 Proceeds from sale of employee residences held for resale                677       1,214
              Net cash used in investing activities                    (1,207)       (802)
CASH FLOWS FROM FINANCING ACTIVITIES:
  Repayments of notes payable                                          (1,413)     (1,413)
              Net cash used in financing activities                    (1,413)     (1,413)
NET (DECREASE) INCREASE IN CASH AND CASH
  EQUIVALENTS                                                             (41)      5,187
CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                           12,736       7,549
CASH AND CASH EQUIVALENTS, END OF YEAR                                $ 12,695    $ 12,736

See notes to financial statements.




                                                      4
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1999 AND 1998


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the Fund) was created by the Federal Credit
     Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury under
     the management of the National Credit Union Administration Board for the purpose of providing
     administration and service to the Federal Credit Union System.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents - The Federal Credit Union Act permits the Fund to make investments in United
     States Government securities or securities guaranteed as to both principal and interest by the United
     States Government. Cash equivalents are highly liquid investments with original maturities of three
     months or less. All investments in 1999 and 1998 were cash equivalents and are stated at cost, which
     approximates market.

     Depreciation and Amortization - Building, furniture and equipment, and leasehold improvements are
     recorded at cost. Depreciation and amortization are computed by the straight-line method over the
     estimated useful lives of the building and furniture and equipment, and the shorter of the estimated useful
     life or lease term for leasehold improvements. Estimated useful lives are forty years for the building and
     three to ten years for the furniture and equipment and leasehold improvements.

     Operating Fees - The Fund assesses each federally chartered credit union an annual fee based on the
     credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
     providing administration and service to the Federal Credit Union System. The Fund recognizes this
     operating fee revenue ratably over the year.

     Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

          Cash and cash equivalents, receivable from National Credit Union Share Insurance Fund
          (NCUSIF), employee advances, other accounts receivable, accounts and notes payable to NCUSIF,
          and other accounts payable are recorded at book values, which approximate the respective fair
          market values.

     Use of Estimates - The preparation of financial statements in conformity with generally accepted
     accounting principles requires management to make estimates and assumptions that affect the reported
     amounts of assets and liabilities and disclosure of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from management’s estimates.

                                                       5
3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                      1999         1998
       Office building and land                                                    $ 42,246      $ 42,229
       Furniture and equipment                                                       22,431        21,780
                     Total                                                           64,677        64,009
       Less: Accumulated depreciation and amortization                               25,973        22,776
       Fixed assets, net                                                           $ 38,704      $ 41,233

4.   TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board derived from an
     estimate of actual usage. The allocation factor was 50% to NCUSIF and to the Fund for 1998 and 1999.
     The cost of the services allocated to NCUSIF, which totaled approximately $57,319,000 and $50,293,000
     for 1999 and 1998, respectively, are reflected as a reduction of the corresponding expenses in the
     accompanying financial statements.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with NCUSIF for the
     purchase of a building. Interest costs incurred were approximately $74,000 for 1999 and $81,000 for
     1998. The outstanding principal balance at December 31, 1999 and 1998, was $1,314,000 and
     $1,386,000, respectively.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
     note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a new building.
     Interest costs incurred were approximately $1,788,000 and $1,926,000 for 1999 and 1998, respectively.
     The note payable balance at December 31, 1999, was approximately $31,847,000.

     The above notes require principal repayments as follows (in thousands):

                                                                      Unsecured Secured
                                                                      Term Note Term Note          Total
       2000                                                            $    72     $ 1,341       $ 1,413
       2001                                                                 72       1,341         1,413
       2002                                                                 72       1,341         1,413
       2003                                                                 72       1,341         1,413
       2004                                                                 72       1,341         1,413
       Thereafter                                                          954      25,142        26,096
                                                                       $ 1,314     $ 31,847      $ 33,161

     The variable rate on both notes is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 1999 and 1998 were 5.52% and 5.70%, respectively. The interest rate at
     December 31, 1999, was 5.57%.




                                                      6
5.   COMMITMENTS
     The Fund leases office space under lease agreements that expire through 2004. Office rental charges
     amounted to approximately $888,000 and $976,000 of which approximately $444,000 and $488,000 was
     reimbursed by NCUSIF for 1999 and 1998, respectively. In addition, the Fund leases office equipment
     under operating leases with lease terms of less than one year.

     The future minimum lease payments as of December 31, 1999, are as follows (in thousands):

                                                                       Operating
                                                                        Leases
                                    2000                               $ 813
                                    2001                                 832
                                    2002                                 850
                                    2003                                 524
                                    2004                                 453
                                           Total                       $ 3,472

     Based on the allocation factor approved by the NCUA Board for 1999, NCUSIF will reimburse the Fund
     for approximately 50% of the future lease payments.

6.   RETIREMENT PLAN
     The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
     includes the Federal Employees’ Retirement System (FERS). Both plans are defined benefit retirement
     plans covering all of the employees of the Fund. FERS is comprised of a Social Security Benefits Plan, a
     Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a percentage of
     employees’ gross pay. Under the Savings Plan, employees can also elect additional contributions
     between 1% and 10% of their gross pay, and the Fund will match up to 5% of the employees’ gross pay.
     In 1999 and 1998, the Fund’s contributions to the plans were approximately $8,304,000 and $6,863,000,
     respectively, of which approximately $4,152,000 and $3,432,000 were reimbursed by NCUSIF,
     respectively.

     The Fund does not account for the assets of the above plans and does not have actuarial data with
     respect to accumulated plan benefits or the unfunded liability relative to eligible employees. These
     amounts are reported by the U.S. Office of Personnel Management for the Civil Service Retirement and
     Disability Fund and are not allocated to individual employers.

7.   DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows (in
     thousands):

                                                       December 31, 1999              December 31, 1998
                                                      Carrying     Fair              Carrying     Fair
                                                      Amount      Value              Amount      Value
       Cash and cash equivalents                      $ 12,695      $ 12,695         $ 12,736     $ 12,736
       Due from NCUSIF                                   1,618         1,618            2,129        2,129
       Employee advances                                   816           816              865          865
       Other accounts receivable                           258           258              113          113
       Accounts payable                                  4,109         4,109            4,064        4,064
       Notes payable to NCUSIF                          33,161        33,161           34,574       34,574
                                                      7
8.   CONTINGENCIES

     Field of Membership Litigation - Four North Carolina Banks and the American Bankers
     Association (ABA) have challenged NCUA’s approval of charter amendments granted to
     AT&T Family Federal Credit Union (FCU). The banks challenged amendments that
     allowed select employee groups that were unrelated to the original sponsor to join the FCU.
     Their claim is that the amendments violate the common bond requirements of the FCU Act.

     In First National Bank & Trust Co., et al. v. National Credit Union Administration, the
     District Court concluded that NCUA’s select employee group policy, which permitted more
     than one distinct employee group to exist in a single credit union, each with its own common
     bond, was a reasonable interpretation of the FCU Act. The banks appealed. On July 30,
     1996, the U.S. Court of Appeals for the D.C. Circuit issued an opinion reversing the District
     Court. The Court concluded that all groups in a credit union must share a single common
     bond.

     On remand to the District Court, the plaintiffs sought a nationwide injunction barring all
     federal credit unions from adding select employee groups that did not share a single common
     bond or adding new members to select employee groups already within their field of
     membership. NCUA objected arguing that this relief went far beyond what was sought in
     the AT&T case. The District Court then permitted the filing of a new lawsuit, ABA et al.
     v. NCUA et al., which for the first time directly challenged NCUA’s multiple group policy
     nationwide. The Court then issued a nationwide injunction barring NCUA’s group policy
     nationwide and prohibiting all federal credit unions from adding new select employee groups
     or new members to existing select employee groups.

     On December 24, 1996, the Court of Appeals issued a partial stay whereby credit unions
     were allowed to admit new members to existing select employee groups, but were still
     prevented from adding new groups. On February 24, 1997, the Supreme Court agreed to
     hear the case. On February 25, 1998, the Supreme Court issued a decision holding that
     banks do have standing to challenge NCUA’s interpretation of Section 109 of the FCU Act,
     and that NCUA’s interpretation of the section was contrary to the unambiguous intent of
     Congress. However, in August 1998, Congress passed the Credit Union Membership
     Access Act (CUMAA), amending the FCU Act in favor of NCUA. The CUMAA allowed
     federal credit unions to retain their then-existing members and groups and to charter multiple
     common bond credit unions. CUMAA also authorized the chartering by NCUA of multiple
     common bond credit unions.

     On December 17, 1998, NCUA’s Board issued a final rule implementing the CUMAA. On
     January 8, 1999, the ABA filed a new lawsuit, ABA v. NCUA, which challenged this rule on
     the premise that the rule violates the FCU Act, as modified by the CUMAA. The compliant
     seeks a declaratory judgment to that effect, and a preliminary injunction setting aside any
     field of membership applications based upon the NCUA’s final rule implementing the
     CUMAA. On March 10, 1999, the ABA’s request for a preliminary injunction was denied.
     On April 1, 1999, the ABA filed its First Amended Compliant. NCUA has filed a partial
     motion to dismiss that is still pending.




                                                8
     In the opinion of management, the ultimate resolution of these matters will not be material to
     NCUA’s financial position.

     Office of Personnel Management Action - In September 1997, the U.S. Office of
     Personnel Management (OPM) transmitted to NCUA a report entitled “Report of a
     Delegated Examining Oversight Review, National Credit Union Administration,” dated June
     16-20, 1997 (the OPM Report). The OPM Report concluded that NCUA had violated merit
     systems principles and committed prohibited personnel practices. As a result of the OPM
     Report, NCUA lost its hiring authority and was required to undertake certain remedial
     actions with respect to its personnel practices. During 1998, NCUA took all corrective
     actions required by OPM and, on July 31, 1998, OPM returned NCUA’s appointing
     authority.

     During 1997, the OPM referred the aforementioned matter to the Office of Special Counsel
     (OSC) for an investigation of prohibited personnel practices. The OSC completed its
     investigation in 1999 and forwarded its findings to NCUA’s Board. No final action has been
     taken by the NCUA Board.

     The resolution of these matters may result in claims against NCUA, as well as additional
     costs related to the remedial personnel actions required. In the opinion of management, the
     ultimate resolution of these matters will not be material to NCUA’s financial position.

     In one personnel action, NCUA reached a settlement subsequent to December 31, 1999,
     whereby it will reimburse certain legal fees and pay certain retirement benefits to a former
     employee. The estimated amount of the settlement, $361,000, has been recorded as of
     December 31, 1999.

     Other Matters - In addition, NCUA is currently party to a number of other disputes which
     involve or may involve litigation. In the opinion of management, the ultimate liability with
     respect to these disputes, if any, will not be material to NCUA’s financial position.

9.   COMMITMENTS

     NCUA has signed agreements for the lease of certain computer equipment beginning in
     2000. The aggregate three-year commitment is approximately $7.4 million.

                                        * * * * * *




                                                 9
NATIONAL CREDIT UNION SHARE INSURANCE FUND

Financial Statements for the Years Ended
December 31, 1999 and 1998, and
Independent Auditors' Reports
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund
as of December 31, 1999 and 1998, and the related statements of operations, fund balance and cash
flows for the years then ended. These financial statements are the responsibility of the National Credit
Union Share Insurance Fund’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Share Insurance Fund as of December 31, 1999 and 1998, and the results of
its operations and its cash flows for the years then ended in conformity with generally accepted
accounting principles.

In accordance with Government Auditing Standards, we have also issued our report dated
February 25, 2000, on our tests of the National Credit Union Share Insurance Fund’s compliance with
certain provisions of laws, regulations, contracts, and grants, and our consideration of its internal control
over financial reporting. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.




February 25, 2000




                                                      1
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)


ASSETS                                                                    1999           1998

  Investments (Note 5)                                              $ 2,487,361     $ 2,827,099
  Cash and cash equivalents                                           1,679,975         981,230
  Accrued interest receivable                                            38,814          40,071
  Assets acquired in assistance to insured credit unions                  9,943          14,253
  Capital notes advanced to insured credit unions                           325           1,466
  Notes receivable - National Credit Union
    Administration Operating Fund (Note 8)                                33,161          34,574
  Other notes receivable                                                   1,920             947

TOTAL ASSETS                                                        $ 4,251,499     $ 3,899,640


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Estimated losses from supervised credit unions (Note 3)           $     69,845    $     78,626
  Estimated losses from asset and merger guarantees (Note 3)                 875              42
  Amounts due to insured shareholders of liquidated credit unions          8,934           7,612
  Due to National Credit Union Administration
    Operating Fund (Note 8)                                                1,618           2,129
  Accounts payable                                                            49             554

              Total liabilities                                           81,321          88,963

COMMITMENTS AND CONTINGENCIES (Notes 3, 8, 10, 11, and 12)

FUND BALANCE:
  Insured credit unions' accumulated contributions                      3,215,634       2,938,503
  Insurance fund balance                                                  954,544         872,174

              Total fund balance                                        4,170,178       3,810,677

TOTAL LIABILITIES AND FUND BALANCE                                  $ 4,251,499     $ 3,899,640


See notes to financial statements.




                                                     2
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)


                                                1999        1998

REVENUES:
  Interest                                    $ 227,281   $ 217,965
  Other                                           1,850       2,033

              Total revenues                   229,131     219,998

EXPENSES (Note 8):
  Administrative expenses (Note 8):
    Employee wages and benefits                 42,673      35,852
    Travel                                       5,402       4,958
    Rent, communications, and utilities          1,839       1,723
    Contracted services                          2,097       2,532
    Other                                        6,381       6,006

              Total expenses                    58,392      51,071

EXCESS OF REVENUES OVER EXPENSES              $ 170,739   $ 168,927


See notes to financial statements.




                                          3
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF FUND BALANCE
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)

                                                    Insured
                                                 Credit Unions'   Insurance
                                                 Accumulated        Fund
                                                 Contributions     Balance

BALANCE AT JANUARY 1, 1998                        $ 2,772,896     $ 820,790

  Contributions from insured credit unions           165,607           -

  Excess of revenues over expenses                       -          168,927

  Dividends to insured credit unions                     -         (117,543)

BALANCE AT DECEMBER 31, 1998                       2,938,503        872,174

  Contributions from insured credit unions           277,131           -

  Excess of revenues over expenses                       -          170,739

  Dividends to insured credit unions                     -          (88,369)

BALANCE AT DECEMBER 31, 1999                      $ 3,215,634     $ 954,544


See notes to financial statements.




                                             4
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)

                                                                            1999         1998

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenues over expenses                                       $ 170,739     $ 168,927
  Adjustments to reconcile excess of revenues over
    expenses to cash provided by operating activities:
    Receipts (payments) relating to losses from supervised
       credit unions and assets and merger guarantees - net                  (7,948)      (2,364)
    (Increase) decrease in assets:
       Accrued interest receivable                                            1,257       (2,268)
       Assets acquired from credit unions, net                                4,310        6,883
       Capital notes advanced to credit unions - net                          1,141         (255)
       Other notes receivable                                                  (973)        (493)
    (Decrease) increase in liabilities:
       Amounts due to National Credit Union
          Administration Operating Fund                                        (511)       2,015
       Amounts due to insured shareholders of liquidated credit unions        1,322      (12,536)
       Accounts payable                                                        (505)          60

              Net cash provided by operating activities                     168,832      159,969

CASH FLOWS FROM INVESTING ACTIVITIES
  Investments, net                                                          339,738      298,822
  Collections on note receivable - National Credit
    Union Administration Operating Fund                                       1,413        1,413

              Net cash provided by investing activities                     341,151      300,235

CASH FLOWS FROM FINANCING ACTIVITIES:
  Contributions from insured credit unions                                  277,131      165,607
  Dividends to insured credit unions                                        (88,369)    (117,543)

              Net cash provided by financing activities                     188,762       48,064

NET INCREASE IN CASH AND CASH EQUIVALENTS                                   698,745      508,268

CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                                981,230      472,962

CASH AND CASH EQUIVALENTS, END OF YEAR                                   $ 1,679,975   $ 981,230

See notes to financial statements.




                                                     5
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1999 AND 1998


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Share Insurance Fund (the Fund) was created by the Public Law 91-468
     (Title II of the Federal Credit Union Act), which was amended in 1984 by Public Law 98-369 as
     discussed in Note 4. The Fund was established as a revolving fund in the United States Treasury under
     the management of the National Credit Union Administration (NCUA) Board for the purpose of insuring
     member share deposits in all federal credit unions and in qualifying state credit unions that request
     insurance. The maximum amount of insurance is $100,000 per shareholder account.

     NCUA exercises direct supervisory authority over federal credit unions and coordinates required
     supervisory involvement with the state chartering authority for state-chartered credit unions insured by
     the Fund. Insured credit unions are required to report certain financial and statistical information to
     NCUA on a semiannual or quarterly basis depending on the size of the credit union and are subject to
     periodic examination by NCUA. Information derived through the supervisory and examination process
     provides the Fund with the ability to identify credit unions experiencing financial difficulties that may
     require assistance from the Fund.

     Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their operations
     if these difficulties are considered by the Fund to be temporary or correctable. This special assistance
     may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or cash
     assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a merger
     partner may be sought. If the assistance or merger alternatives are not practical, the credit union is
     liquidated.

     The first form of special assistance is waivers of statutory reserve requirements, whereby the credit
     union is permitted to cease making additions to its regular reserve and, in more severe cases, to
     commence charging operating losses against its regular reserve. When all reserves have been depleted
     by the credit union, the fund may provide a reserve guarantee account in the amount of the reserve
     deficit. In addition, the Fund may provide cash assistance in the form of share deposits and capital notes,
     or may purchase assets from the credit union.

     Mergers of financially troubled credit unions with stronger credit unions may also require Fund
     assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
     Fund, and/or guarantees of the values of certain assets (primarily loans).

     When a credit union is no longer able to continue operating and the merger and assistance alternatives
     are not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares
     up to the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
     guaranteed to third-party purchasers by the Fund.




                                                       6
2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents and Investments - Title II of the Federal Credit Union Act limits the Fund’s
     investments to United States Government securities or securities guaranteed as to both principal and
     interest by the United States Government. Cash equivalents are highly liquid investments with original
     maturities of three months or less. All investments are classified as held-to-maturity under Statement of
     Financial Standards No. 115, “Accounting for Certain Investments in Debt and Equity Securities.”
     Accordingly, the Fund records investments at amortized cost.

     Advances to Insured Credit Unions - The Fund provides cash assistance in the form of interest and
     non-interest-bearing capital notes (carried at face value), share deposits, and loans to certain credit
     unions to assist them in continuing their operations.

     Assets Acquired from Credit Unions - The Fund acquires the assets of liquidating credit unions pending
     their ultimate disposition. To assist in the merger of credit unions, the Fund may purchase certain credit
     union assets. In addition, the Fund may provide cash assistance by acquiring nonperforming assets of a
     credit union experiencing financial difficulty. These acquired assets are maintained by the Asset
     Management and Assistance Center in Austin, Texas, and are recorded by the Fund at their estimated
     net realizable value.

     Premium Revenue - The Fund may assess each insured credit union a regular annual premium of 1/12 of
     1% of its member share deposits (insured member share deposits in the case of corporate credit unions)
     outstanding as of December 31st of the preceding insurance year. The NCUA Board waived the 1999
     and 1998 share insurance premiums.

     Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the Internal
     Revenue Code.

     Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

     a.   Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents approximate
          fair values.

     b.   Investments - The fair value for investments is the quoted market value.

     c.   Capital Notes and Other Notes Receivable - It is not practicable to estimate the fair value of
          these assets as there is no secondary market, and the Fund has the ability and the intention to hold
          these notes to maturity.

     d.   Other - Accrued interest receivable, notes receivable from NCUA Operating Fund, payable to
          NCUA Operating Fund, due to insured shareholders of liquidated credit unions and other accounts
          payable are recorded at book values, which approximate the respective fair values.

     Use of Estimates - The preparation of financial statements in conformity with generally accepted
     accounting principles requires management to make estimates and assumptions that affect the reported
     amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from management’s estimates.


                                                       7
3.   PROVISION FOR INSURANCE LOSSES

     Management identifies credit unions experiencing financial difficulty through the Fund’s supervisory and
     examination process. The estimated losses from these supervised credit unions are determined by
     management on a specified case basis. Management also evaluates overall economic trends and
     monitors potential system-wide risk factors such as increasing levels of consumer debt, bankruptcies, and
     delinquencies. Nonspecified case reserve requirements are determined based upon an assessment of
     insured risk and historic loss experience. The anticipated losses are net of estimated recoveries from the
     disposition of the assets of failed credit unions.

     Total insurance in force as of December 31, 1999, is $337 billion, which includes natural person and
     corporate credit unions. The total net reserves for identified and anticipated losses from supervised
     credit unions’ failures is $71 million at December 31, 1999. Should there be no recoveries provided
     during the resolution process, possible additional reserves for $28 million would be required.

     In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
     loans) to third-party purchasers or to credit unions to facilitate mergers. Such guarantees totaled
     approximately $1,281,000 and $556,000 at December 31, 1999 and 1998, respectively. The estimated
     losses from asset and merger guarantees are determined by management on a case-by-case evaluation.

     In addition, the Fund guarantees loans made by the NCUA’s Central Liquidity Facility (CLF). Total line-
     of-credit guarantees of credit unions at December 31, 1999 and 1998, are approximately $6,085,000 and
     $25,311,000, respectively. The total balances outstanding under these line-of-credit guarantees at
     December 31, 1999 and 1998, are approximately $200,000 and $384,000, respectively.

     The activity in the reserves for estimated losses from supervised credit unions and asset and merger
     guarantees was as follows (in thousands):

                                                                                           Year Ended
                                                                                          December 31,
                                                                                        1999        1998

       BEGINNING BALANCE                                                             $ 78,668      $ 81,032

          Insurance losses                                                            (14,324)        (5,139)
          Recoveries                                                                    6,376          2,775

       ENDING BALANCE                                                                $ 70,720      $ 78,668

4.   FUND CAPITALIZATION

     Title VIII of Public Law 98-369, effective July 14, 1984, provided for the capitalization of the Fund
     through the contribution by each insured credit union of an amount equal to 1% of the credit union’s
     insured shares to be paid initially by January 21, 1985, and to be adjusted annually thereafter. The annual
     adjustment of the contribution is based on member share deposits outstanding as of December 31st of the
     preceding year and is billed on a calendar year basis. The 1% contribution will be returned to the insured
     credit union in the event that its insurance coverage is terminated, or is obtained from another source, or
     the operations of the Fund are transferred from the NCUA Board.




                                                       8
     The law requires that, upon receipt of the 1% contribution, the total fund balance must be maintained at a
     normal operating level as determined by the NCUA Board. The NCUA Board has determined this level
     to range from 1.25% to 1.30% of insured shares. The level at both December 31, 1999 and 1998, was
     1.30%. Total insured shares at December 31, 1999 and 1998, were $337 billion and $322 billion,
     respectively.

     The NCUA Board declared and paid dividends of approximately $88,370,000 and $117,543,000 during
     1999 and 1998, respectively.

5.   INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured credit unions
     and liquidation activities is invested in U.S. Treasury securities.

     Investments consist of the following (in thousands):

                                                              December 31, 1999
                                        Yield to                  Gross       Gross                Estimated
                                       Maturity     Amortized   Unrealized Unrealized               Market
                                       at Market      Cost        Gains       Losses                 Value

       U.S. TREASURY
         SECURITIES:
         Maturities up to one year        5.98 % $ 998,667           $     489     $      -       $ 999,156
         Maturities after one year
            through five years            6.42 %     1,488,694              -          (16,882)    1,471,812

                      Total                        $ 2,487,361       $     489     $ (16,882)     $ 2,470,968

                                                              December 31, 1998
                                        Yield to                  Gross       Gross                Estimated
                                       Maturity     Amortized   Unrealized Unrealized               Market
                                       at Market      Cost        Gains       Losses                 Value

       U.S. TREASURY
         SECURITIES:
         Maturities up to one year        5.98 % $ 1,528,491         $ 10,899      $      (15)    $ 1,539,375
         Maturities after one year
            through five years            6.11 %     1,298,608           29,361               -    1,327,969

                      Total                        $ 2,827,099       $ 40,260      $      (15)    $ 2,867,344

     Total investment purchases during both 1999 and 1998 were approximately $1.1 billion. Investment
     maturities during 1999 and 1998 were approximately $1.5 billion and $1.4 million, respectively. The Fund
     has the capability and management has the intention to hold all investments held at December 31, 1999
     and 1998, to maturity. There were no investment sales during 1999 and 1998.

6.   OTHER ASSETS

     Other assets are primarily comprised of secured and unsecured term notes related to the sale of assets
     held by the Asset Management and Assistance Center and recoveries on failed credit unions. The notes


                                                       9
     are being repaid in monthly principal installments with terms ranging from one to thirty years and interest
     rates ranging from 8.0% to 10.5%.

7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United
     States, upon authorization by the NCUA Board, up to a maximum of $100,000,000. The CLF is
     authorized to make advances to the Fund under terms and conditions established by the NCUA Board.
     No borrowings were obtained from these sources during 1999 and 1998.

8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
     Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
     NCUA Board derived from a study of actual usage conducted by the management of these Funds. The
     allocation factor was 50% to the Fund and 50% to the NCUA Operating Fund for 1999 and 1998. The
     cost of services provided by the NCUA Operating Fund was approximately $57,319,000 and $50,293,000
     for 1999 and 1998, respectively, and includes pension contributions of approximately $4,152,000 and
     $3,432,000 to the Civil Service Retirement System and Federal Employees Retirement System defined
     benefit retirement plans for 1999 and 1998, respectively.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with the NCUA Operating
     Fund. Interest received was approximately $74,000 for 1999 and $81,000 for 1998. The note receivable
     balance at December 31, 1999 and 1998, was approximately $1,314,000 and $1,386,000, respectively.

     In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
     term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund
     as needed to fund the costs of constructing a new building. Interest income was approximately
     $1,788,000 and $1,926,000 for 1999 and 1998, respectively. The note receivable balance at
     December 31, 1999, was approximately $33,161,000.

     The above notes mature as follows (in thousands):

                                                                       Unsecured       Secured
                                                                       Term Note      Term Note        Total
       2000                                                             $    72       $ 1,341       $ 1,413
       2001                                                                  72         1,341         1,413
       2002                                                                  72         1,341         1,413
       2003                                                                  72         1,341         1,413
       2004                                                                  72         1,341         1,413
       Thereafter                                                           954        25,142        26,096
                      Total                                             $ 1,314       $ 31,847      $ 33,161




                                                      10
     The variable rate on both term notes is equal to the Fund’s prior-month yield on investments. The
     average interest rate during 1999 and 1998 was approximately 5.52% and 5.70%, respectively. At
     December 31, 1999, the rate was 5.57%.

     The NCUA Operating Fund leases certain office space and equipment under operating lease agreements
     that expire through 2004. Based on the allocation factor approved by the NCUA Board for 1998, the
     Fund will reimburse the NCUA Operating Fund for approximately 50% of the future lease payments.
     The cost of services provided by the NCUA Operating Fund includes rental charges of approximately
     $444,000 and $488,000 for 1999 and 1998, respectively. The amounts were derived using the current
     annual allocation factor.

     The NCUA Operating Fund’s total future minimum lease payments as of December 31, 1999, are as
     follows (in thousands):

                                               2000                            $ 813
                                               2001                              832
                                               2002                              850
                                               2003                              524
                                               2004                              453

                                               Total                           $ 3,472

9.   DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows:

                                              December 31, 1999                   December 31, 1998
                                            Carrying        Fair                Carrying        Fair
                                            Amount         Value                Amount         Value

       Investments                        $ 2,487,361       $ 3,470,968       $ 2,827,099      $ 2,867,344
       Cash and cash equivalents            1,679,975         1,679,975           981,230          981,230
       Accrued interest receivable             38,814            38,814            40,071           40,071
       Notes receivable - NCUA
          Operating Fund                      33,161            33,161             34,574           34,574
       Amounts due to insured
          shareholders of liquidated
          credit unions                         8,934            8,934              7,612            7,612
       Due to NCUA Operating Fund               1,618            1,618              2,129            2,129
       Accounts payable                            49               49                554              554

10. CONCENTRATIONS

     There are no significant concentrations of member share deposits within any region of the United States.
     Concentrations of member shares do exist within the manufacturing, governmental, and educational
     industries.

11. CONTINGENCIES

     Field of Membership Litigation - Four North Carolina Banks and the American Bankers Association
     (ABA) have challenged NCUA’s approval of charter amendments granted to AT&T Family Federal


                                                       11
Credit Union (FCU). The banks challenged amendments that allowed select employee groups that were
unrelated to the original sponsor to join the FCU. Their claim is that the amendments violate the common
bond requirements of the FCU Act.

In First National Bank & Trust Co., et al. v. National Credit Union Administration, the District Court
concluded that NCUA’s select employee group policy, which permitted more than one distinct employee
group to exist in a single credit union, each with its own common bond, was a reasonable interpretation of
the FCU Act. The banks appealed. On July 30, 1996, the U.S. Court of Appeals for the D.C. Circuit
issued an opinion reversing the District Court. The Court concluded that all groups in a credit union must
share a single common bond.

On remand to the District Court, the plaintiffs sought a nationwide injunction barring all federal credit
unions from adding select employee groups that did not share a single common bond or adding new
members to select employee groups already within their field of membership. NCUA objected, arguing
that this relief went far beyond what was sought in the AT&T case. The District Court then permitted
the filing of a new lawsuit, ABA et al. v. NCUA et al., which for the first time directly challenged
NCUA’s multiple group policy nationwide. The Court then issued a nationwide injunction barring
NCUA’s group policy nationwide and prohibiting all federal credit unions from adding new select
employee groups or new members to existing select employee groups.

On December 24, 1996, the Court of Appeals issued a partial stay whereby credit unions were allowed
to admit new members to existing select employee groups but were still prevented from adding new
groups. On February 24, 1998, the Supreme Court agreed to hear the case. On February 25, 1998, the
Supreme Court issued a decision holding that banks do have standing to challenge NCUA’s interpretation
of Section 109 of the FCU Act, and that NCUA’s interpretation of that section was contrary to the
unambiguous intent of Congress. However, in August 1998, Congress passed the Credit Union
Membership Access Act (CUMAA), amending the FCU Act in favor of NCUA. The CUMAA
allowed federal credit unions to retain their then-existing members and groups and to charter multiple
common bond credit unions. CUMAA also authorized the chartering by NCUA of multiple common
bond credit unions.

On December 17, 1998, NCUA’s Board issued a final rule implementing the CUMAA. On January 8,
1999, the ABA filed a new lawsuit, ABA v. NCUA, which challenged this rule on the premise that the
rule violates the FCU Act, as modified by the CUMAA. The complaint seeks a declaratory judgment to
that effect, and a preliminary injunction setting aside any field of membership applications based upon the
NCUA’s final rule implementing the CUMAA. On March 10, 1999, the ABA’s request for a
preliminary injunction was denied. On April 1, 1999, the ABA filed its First Amended Complaint.
NCUA has filed a partial motion to dismiss that is still pending.

In the opinion of management, the ultimate resolution of these matters will not be material to NCUA’s
financial position.

Office of Personnel Management Action - In September 1997, the U.S. Office of Personnel
Management (OPM) transmitted to NCUA a report entitled “Report of a Delegated Examining
Oversight Review, National Credit Union Administration,” dated June 16-20, 1997 (the OPM Report).
The OPM Report concluded that NCUA had violated merit systems principles and committed prohibited
personnel practices. As a result of the OPM Report, NCUA lost its hiring authority and was required to




                                                 12
   undertake certain remedial actions with respect to its personnel practices. During 1998, NCUA took all
   corrective actions required by OPM and, on July 31, 1998, OPM returned NCUA’s appointing authority.

   During 1997, the OPM referred the aforementioned matter to the Office of Special Counsel (OSC) for
   an investigation of prohibited personnel practices. The OSC completed its investigation in 1999 and
   forwarded its findings to NCUA’s Board. No final action has been taken by the NCUA Board.

   The resolution of these matters may result in claims against NCUA, as well as additional costs related to
   the remedial personnel actions required. In the opinion of management, the ultimate resolution of these
   matters will not be material to NCUA’s financial position.

   In one personnel action, NCUA reached a settlement subsequent to December 31, 1999, whereby it will
   reimburse certain legal fees and pay certain retirement benefits to a former employee. The estimated
   amount of the settlement, $361,000, has been recorded as of December 31, 1999.

   Other Matters - In addition, NCUA is currently party to a number of other disputes that involve or may
   involve litigation. In the opinion of management, the ultimate liability with respect to those disputes, if
   any, will not be material to NCUA’s financial position.

12. COMMITMENTS

   NCUA has signed agreements for the lease of certain computer equipment beginning in 2000. The
   aggregate three-year commitment amounts to approximately $7.4 million.

                                             * * * * * *




                                                     13
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

Financial Statements for the Years
Ended December 31, 1999 and 1998, and
Independent Auditors’ and Accountants’ Reports
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 1999 and 1998, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the responsibility of
CLF’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Central Liquidity Facility as of December 31, 1999 and 1998, and the
results of its operations and its cash flows for the years then ended in conformity with generally accepted
accounting principles.

In accordance with Government Auditing Standards, we have also issued our report dated February 25,
2000, on our examination of the National Credit Union Administration Central Liquidity Facility’s assertions as
to the effectiveness of its internal control over financial reporting, and our report dated February 25, 2000, on
our tests of its compliance with certain provisions of laws, regulations, contracts, and grants. Those reports
are integral parts of an audit performed in accordance with Government Auditing Standards and should be
read in conjunction with this report in considering the results of our audit.



February 25, 2000




                                                          1
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)


ASSETS                                                       1999            1998

  Cash (Note 11)                                          $ 977,248     $       12
  Investments with U.S. Central Credit
    Union (Notes 5, 8, 9, and 11)                            909,884        797,405
  Loans to members (Notes 4 and 11)                           58,600           -
  Accrued interest receivable (Note 11)                       16,436          8,233

TOTAL ASSETS                                              $ 1,962,168   $ 805,650


LIABILITIES AND MEMBERS' EQUITY

LIABILITIES:
  Federal Financing Bank notes payable (Notes 6 and 11)   $ 1,041,000   $      -
  Member deposits (Notes 7 and 11)                             28,020        25,782
  Accounts payable and other liabilities (Note 11)                731            59

              Total liabilities                            1,069,751         25,841

MEMBERS' EQUITY:
 Capital stock - required (Note 7)                           880,953        768,298
 Retained earnings                                            11,464         11,511

              Total members' equity                          892,417        779,809

TOTAL LIABILITIES AND MEMBERS' EQUITY                     $ 1,962,168   $ 805,650


See notes to financial statements.




                                                  2
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)


                                                  1999       1998

REVENUE - Investment income                     $ 50,021   $ 40,028

EXPENSES (Note 10):
  Operating expenses:
    Group agent service fee                           1          1
    Personnel services                              124         85
    Other services                                   31         26
   Rent, communications and utilities                14         14
    Personnel benefits                               28         19
    Supplies and materials                            4          2
    Employee travel                                   6          2
   Printing and reproduction                          6          4

              Total operating expenses              214        153

  Interest - Federal Financing Bank notes         5,862        -
  Interest - member deposits                        699        449

              Total expenses                      6,775        602

EXCESS OF REVENUE OVER EXPENSES                 $ 43,246   $ 39,426


See notes to financial statements.




                                            3
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS' EQUITY
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)

                                              Capital    Retained
                                              Stock      Earnings

BALANCE AT JANUARY 1, 1998                   $ 735,671   $ 11,511

  Issuance of required capital stock           32,627        -

  Dividends                                       -       (39,426)

  Excess of revenue over expenses                 -        39,426

BALANCE AT DECEMBER 31, 1998                  768,298      11,511

  Issuance of required capital stock          113,124        -

  Redemption of required capital stock           (469)       -

  Dividends                                       -       (43,293)

  Excess of revenue over expenses                          43,246

BALANCE AT DECEMBER 31, 1999                 $ 880,953   $ 11,464


See notes to financial statements.




                                         4
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1999 AND 1998
(Dollars in Thousands)

                                                                          1999            1998

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenue over expenses                                   $     43,246     $ 39,426
 Adjustments to reconcile excess of revenue over expenses
    to net cash provided by operating activities:
    (Increase) decrease in accrued interest receivable                     (8,203)         1,485
    Increase (decrease) in accounts payable and other liabilities             672            (10)

              Net cash provided by operating activities                   35,715         40,901

CASH FLOWS FROM INVESTING ACTIVITIES:
  Purchase of investments                                               (112,479)        (34,073)
  Loan disbursement                                                      (58,600)            -

              Net cash used in investing activities                     (171,079)        (34,073)

CASH FLOWS FROM FINANCING ACTIVITIES:
  Additions to member deposits                                              4,620          1,506
  Issuance of required capital stock                                      113,124         32,627
  Dividends                                                               (43,293)       (39,426)
  Withdrawal of member deposits                                            (2,382)        (1,537)
 Redemption of required capital stock                                        (469)           -
  Proceeds from issuing notes                                           1,041,000            -

              Net cash provided by (used in) financing activities       1,112,600         (6,830)

NET INCREASE (DECREASE) IN CASH                                          977,236                (2)

CASH, BEGINNING OF YEAR                                                       12                14

CASH, END OF YEAR                                                   $ 977,248        $          12


SUPPLEMENTAL INFORMATION:
  Interest paid                                                     $       5,209    $      -


See notes to financial statements.




                                                      5
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1999 AND 1998


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (CLF) was created by the National
     Credit Union Central Liquidity Facility Act (the Act). The CLF is designated as a mixed-ownership
     government corporation under the Government Corporation Control Act. The CLF exists within the
     National Credit Union Administration (NCUA) and is managed by the National Credit Union
     Administration Board. The CLF became operational on October 1, 1979.

     The purpose of the CLF is to improve general financial stability by meeting the liquidity needs of credit
     unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting - The CLF maintains its accounting records on the accrual basis of accounting.

     Allowance for Loan Losses - Loans to members are made on both a short-term and long-term basis.
     For all loans, the CLF either obtains a security interest in the assets of the borrower or in some cases
     receives the guarantee of the NCUA Share Insurance Fund.

     The CLF evaluates the collectibility of its loans to members through examination of the financial condition
     of the individual borrowing credit unions and the credit union industry in general.

     Investments - The CLF invests in redeposits and share accounts at U.S. Central Credit Union (see
     Notes 5 and 8). All other investments are short-term with no maturities in excess of one year. All
     investments are classified as held-to-maturity under Statement of Financial Accounting Standards No.
     115, “Accounting for Certain Investments in Debt and Equity Securities.” Accordingly, the CLF records
     investments at amortized cost.

     Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
     the fair value disclosures for financial instruments:

     a.   Cash - The carrying amounts for cash approximate fair value.

     b.   Investments - Securities held have maturities of one year or less and, as such, the carrying amounts
          approximate fair value.

     c.   Loans - For loans advanced to member credit unions, the carrying amounts approximate fair value.

     d.   Member Deposits - Funds maintained with the CLF in excess of required capital amounts are
          recorded as member deposits. These deposits are due upon demand and the carrying amounts
          approximate the fair value.

                                                       6
     e.     FFB Notes Payable - For notes issued to the Federal Financing Bank, the carrying amounts
            approximate fair value.

     f.     Other - Accrued interest receivable and accounts payable and other liabilities are recorded at book
            values, which approximate the respective fair values.

     Use of Estimates - The preparation of financial statements in conformity with generally accepted
     accounting principles requires management to make estimates and assumptions that affect the reported
     amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     The CLF is subject to various Federal laws and regulations. The CLF’s operating budget requires
     Congressional approval and the CLF may not make loans to members for the purpose of expanding
     credit union loan portfolios. The CLF’s investments are restricted to obligations of the United States
     Government and its agencies, deposits in Federally insured financial institutions, and shares and deposits
     in credit unions. Borrowing is Congressionally limited to twelve times equity and capital subscriptions on-
     call. However, there is a Congressional limitation of $600 million on funds that are borrowed and then
     loaned out at any one point in time. At December 31, 1998, the CLF was in compliance with these
     Congressional limitations.

     On May 21, 1999, the President signed a midyear spending bill (HR 1141) that authorized the CLF to
     fully utilize its borrowing authority under the Federal Credit Union Act. That act effectively raised the
     CLF borrowing cap from $600 million to $20.7 billion (see Note 12). At December 31, 1999, the CLF is
     in compliance with its borrowing authority.

4.   LOANS TO MEMBERS

     The balance of outstanding loans as of December 31, 1999, was $58,600,000. Interest rates of these
     loans range from 5.239% to 5.4878%, and their maturities extend through March 2000. The CLF can
     provide members with extended loan commitments. There were no outstanding loan commitments at
     either December 31, 1999 and 1998, and there were no loans outstanding at December 31, 1998. See
     Note 12.

5.   FUNDS ON DEPOSIT WITH U.S. CENTRAL CREDIT UNION

     Funds not currently required for operations are invested as follows (in thousands):

                                                                                         December 31,
                                                                                       1999        1998

          U.S. Central Credit Union (see Note 8):
            Redeposit Account                                                       $ 836,014      $ 732,320
            Share accounts                                                             73,870         65,085

                                                                                    $ 909,884      $ 797,405


                                                       7
6.   BORROWING AUTHORITY

     The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF
     in the event that the Board certifies to the Secretary that the CLF does not have sufficient
     funds to meet the liquidity needs of credit unions. This authority to lend is limited to such
     extent and in such amounts as are provided in advance by Congressional Appropriation Acts.
     On December 23, 1981, President Reagan signed PL 97-101, which provided $100 million of
     permanent indefinite borrowing authority that may be provided by the Secretary of the
     Treasury to the CLF to meet emergency liquidity needs of credit unions. On May 21, 1999,
     the President signed a midyear spending bill HR 1141 that authorized the CLF to fully utilize
     its borrowing authority under the Federal Credit Union Act, or approximately $20.7 billion.
     Borrowings would be from the Federal Financing Bank with interest generally payable upon
     maturity. See Note 12.

7.   CAPITAL STOCK AND MEMBER DEPOSITS

     The required capital stock account represents subscriptions remitted to the CLF by member
     credit unions. Regular members’ required subscription amounts equal one-half of one
     percent of their paid-in and unimpaired capital and surplus, one-half of which amount is
     required to be remitted to the CLF. Agent members’ required subscription amounts equal
     one-half of one percent of the paid-in and unimpaired capital and surplus of all of the credit
     unions served by the agent member, one-half of which is required to be remitted to the CLF.
     In both cases, the remaining one-half of the subscription is required to be held in liquid assets
     by the member credit unions subject to call by the National Credit Union Administration
     Board. These unremitted subscriptions are not reflected in the CLF’s financial statements.
     Subscriptions are adjusted annually to reflect changes in the member credit unions’ paid-in
     and unimpaired capital and surplus. Dividends are declared and paid on required capital
     stock.

     Member deposits represent amounts remitted by members over and above the amount
     required for membership. Interest is paid on member deposits at a rate equivalent to the
     dividend rate paid on required capital stock.

8.   U.S. CENTRAL CREDIT UNION MEMBERSHIP

     During fiscal year 1984, the CLF accepted a membership request from U.S. Central Credit
     Union (USC) on behalf of 29 of its corporate credit union members. At December 31, 1999
     and 1998, $836,014,000 and $732,320,000, respectively, of the required portion of subscribed
     capital stock was purchased from the CLF by USC on behalf of its member credit unions.

     In addition, by accepting the USC membership request, the CLF was initially committed to
     reinvest all but $50,000,000 of its total share capital in USC at market rates of interest.
     Beginning April 1, 1996, the CLF reinvests all of its agent member share capital in USC at
     market rates of interest. At December 31, 1999 and 1998, approximately $909,884,000 and
     $797,405,000, respectively, were invested in USC share accounts at 5.67% and 4.51%,
     respective yields.




                                                  8
9.   CONCENTRATION OF CREDIT RISK

     At December 31, 1999 and 1998, the CLF has a concentration of credit risk for its
     investments on deposit with USC of approximately $909,884,000 and $797,405,000 (see
     Notes 5 and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION
    ADMINISTRATION

     The National Credit Union Administration provides the CLF with data processing and other
     miscellaneous services and supplies. In addition, the National Credit Union Administration
     pays CLF’s employees’ salaries and benefits as well as the CLF’s portion of monthly
     building operating costs. The CLF reimburses the National Credit Union Administration on a
     monthly basis for these items. Total reimbursements for the years ended December 31,
     1999 and 1998, amounted to approximately $213,000 and $151,000, respectively.

11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the CLF’s financial instruments are as
     follows (in thousands):

                                                   December 31, 1999                December 31, 1998
                                               Carrying        Fair                Carrying      Fair
                                               Amount         Value                Amount       Value

       Cash                                  $ 977,248       $ 977,248            $         12    $         12
       Investments                              909,884         909,884               797,405         797,405
       Loans to members                          58,600            -                      -               -
       Accrued interest receivable               16,436          16,436                 8,233           8,233
       FFB notes payable                      1,041,000       1,041,000                   -               -
       Member deposits                           28,020          28,020                25,782          25,782
       Accounts payable and
         other liabilities                           731             731                   59              59

12. SHORT–TERM REVOLVING CREDIT FACILITY

     On July 15, 1999, the National Credit Union Administration signed a note purchase
     agreement with the Federal Financing Bank (FFB) on behalf of the CLF. The agreement
     provides for a commitment amount of $20.7 billion and expires on September 30, 2000.
     Under this agreement, the CLF could request advances from FFB on an anticipatory basis in
     order to meet possible extraordinary and unpredictable liquidity-need loan demands from
     member natural person credit unions resulting from the century date change conversion.

     As of December 31, 1999, the CLF had outstanding advances aggregating $1.041 billion, of
     which $41 million had in turn been loaned to member credit unions, maturing in March 2000.
     The remaining $1 billion was repaid to FFB during January 2000. Interest rates on the
     outstanding advances ranged from 5.23% to 5.597% as of December 31, 1999.

                                       * * * * * *


                                               9
10
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING
LOAN PROGRAM

Financial Statements for the Years
Ended December 31, 1999 and 1998, and
Independent Auditors' Reports
INDEPENDENT AUDITORS' REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Community
Development Revolving Loan Program (CDRLP) as of December 31, 1999 and 1998, and the related
statements of operations, changes in program balance, and cash flows for the years then ended. These
financial statements are the responsibility of the CDRLP’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Community Development Revolving Loan Program as of December 31,
1999 and 1998, and the results of its operations and its cash flows for the years then ended in conformity with
generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our report dated February 25,
2000, on our consideration of the National Credit Union Administration Community Development Revolving
Loan Program internal control over financial reporting and on our tests of its compliance with certain
provisions of laws, regulations, contracts, and grants. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.



February 25, 2000




                                                        1
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

BALANCE SHEETS
DECEMBER 31, 1999 AND 1998

ASSETS                                           1999             1998

  Cash and cash equivalents (Note 2)       $ 4,320,218      $ 3,043,631
  Loans - net of allowance (Note 4)          7,344,047        7,666,977
  Interest receivable                           52,815           62,431

TOTAL ASSETS                               $ 11,717,080     $ 10,773,039


LIABILITIES AND PROGRAM BALANCE

LIABILITIES:
  Accrued technical assistance             $     116,097    $     190,560

              Total liabilities                  116,097          190,560

PROGRAM BALANCE:
  Revolving fund capital (Note 3)              10,996,200       10,000,000
  Accumulated earnings                            604,783          582,479

              Total program balance            11,600,983       10,582,479

TOTAL LIABILITIES AND PROGRAM BALANCE      $ 11,717,080     $ 10,773,039


See notes to financial statements.




                                       2
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 1999 AND 1998

                                                  1999            1998

REVENUES:
  Interest on cash equivalents                  $ 118,571    $    59,795
  Interest on loans                               220,483        217,972
  Provision for loan losses                       (11,204)       (21,658)

              Total                               327,850        256,109

EXPENSES:
  Technical assistance                           (305,546)       (405,652)

              Total                              (305,546)       (405,652)

EXCESS (DEFICIENCY) OF REVENUES OVER EXPENSES   $ 22,304     $ (149,543)


See notes to financial statements.




                                     3
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

STATEMENTS OF CHANGES IN PROGRAM BALANCE
YEARS ENDED DECEMBER 31, 1999 AND 1998

                                                             1999           1998

PROGRAM BALANCE, BEGINNING OF YEAR                       $ 10,582,479   $ 8,732,022

   Appropriation - revolving fund capital (Note 3)           996,200      2,000,000

   Excess (deficiency) of revenues over expenses              22,304       (149,543)

PROGRAM BALANCE, END OF YEAR                             $ 11,600,983   $ 10,582,479


See notes to financial statements.




                                                     4
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1999 AND 1998

                                                                          1999           1998

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess (deficiency) of revenues over expenses                     $      22,304     $ (149,543)
  Adjustments to reconcile the excess (deficiency) of
    revenues over expenses to net cash used in
    operating activities:
    Provision for loan losses                                              11,203         21,658
    Decrease (increase) in interest receivable                              9,616         (6,710)
    (Decrease) increase in accrued technical assistance                   (74,463)       105,315

              Net cash used in operating activities                       (31,340)        (29,280)

CASH FLOWS FROM INVESTING ACTIVITIES:
  Loan principal repayments                                              2,186,727      1,965,296
  Loan disbursements                                                    (1,875,000)    (2,965,000)

              Net cash provided by (used in) investing activities         311,727       (999,704)

CASH FLOWS FROM FINANCING ACTIVITIES:
  Appropriation - revolving fund capital                                  996,200       2,000,000

              Net cash provided by financing activities                   996,200       2,000,000

NET INCREASE IN CASH AND
  CASH EQUIVALENTS                                                      1,276,587        971,016

CASH AND CASH EQUIVALENTS,
  BEGINNING OF YEAR                                                     3,043,631       2,072,615

CASH AND CASH EQUIVALENTS, END OF YEAR                              $ 4,320,218       $ 3,043,631


See notes to financial statements.




                                                      5
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1999 AND 1998


1.   NATURE OF ORGANIZATION

     The Community Development Revolving Loan Program for Credit Unions (CDRLP) was established by
     an act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic development in low-
     income communities. The National Credit Union Administration (NCUA) and the Community Services
     Association (CSA) jointly adopted Part 705 of NCUA Rules and Regulations, governing administration of
     the Program, on February 28, 1980.

     Upon the dissolution of CSA in 1983, administration of the CDRLP was transferred to the Department of
     Health and Human Services (HHS). Because HHS never promulgated final regulations governing the
     administration of the CDRLP, the program was dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
     transferred CDRLP administration back to NCUA. The NCUA Board adopted amendments to Part 705
     of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
     participating credit unions in 1990.

     The purpose of the CDRLP is to stimulate economic activities in the communities served by low-income
     credit unions which will result in increased income, ownership and employment opportunities for low-
     wealth residents and other economic growth. The policy of NCUA is to revolve the loans to qualifying
     credit unions as often as practical in order to gain maximum impact on as many participating credit unions
     as possible.

2.   SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting - The CDRLP reports its financial statements on the accrual basis of accounting.

     Cash Equivalents - The Federal Credit Union Act permits the CDRLP to make investments in United
     States Government Treasury securities. All investments in 1999 and 1998 were cash equivalents and are
     stated at cost which approximates market. Cash equivalents are highly liquid investments with original
     maturities of three months or less.

     Allowance for Loan Losses - The CDRLP records a provision for estimated loan losses. Loans
     considered to be uncollectible are charged to the allowance for loan losses. Management continually
     evaluates the adequacy of the allowance for loan losses based upon prevailing circumstances and an
     assessment of collectibility risk of the total loan portfolio. Accrual of interest is discontinued on non-
     performing loans when management believes collectibility is doubtful. At December 31, 1999 and 1998,
     there were no nonaccrual loans.

     Salary and Operating Expenses - NCUA provides certain general and administrative support to the
     CDRLP, including office space, salaries, and certain supplies. The value of these contributed services is
     not allocated to the CDRLP. Consequently, the results of operations would be significantly different if
     the CDRLP were required to pay these expenses.

                                                     6
     Use of Estimates - The preparation of financial statements in conformity with generally accepted
     accounting principles requires management to make estimates and assumptions that affect the reported
     amounts of assets and liabilities and disclosure of contingent assets and liabilities at the date of the
     financial statements and the reported amounts of revenues and expenses during the reporting period.
     Actual results could differ from management's estimates.

3.   GOVERNMENT REGULATIONS

     The CDRLP is subject to various Federal laws and regulations. Lending is limited by Congress to a total
     of the $10,996,200 appropriated for the CDRLP plus accumulated earnings. Included in this $10,996,200
     is $2,000,000 that was made available to the CDRLP during 1998 in accordance with Public Law 105-
     276, and an additional $996,200 that was made available to the CDRLP during 1999 in accordance with
     Public Law 106-74. Federally chartered and state-chartered credit unions may participate in the
     CDRLP’s community loan program. Loans may be made to predominantly low-income credit unions as
     defined by the NCUA and are recorded in the participant's accounting records as nonmember deposits.
     As nonmember deposits, the NCUA Share Insurance Fund (NCUSIF) may insure these loans to
     participating credit unions in an amount not to exceed $100,000 per credit union. The covered amount of
     loans recorded as nonmember deposits by participating credit unions insured by the NCUSIF totaled
     approximately $4,998,000 and $4,956,000 at December 31, 1999 and 1998, respectively.

     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued between January 1,
     1995, and December 31, 1998, carry a fixed interest rate of 3%; and loans issued after January 1, 1999,
     carry a fixed rate of 2%. Interest and principal are repaid on a semiannual basis beginning one year
     after the initial distribution of the loan. The maximum term of each loan is five years. Participating
     credit unions are required to match the value of the loan within one year of the date of approval of the
     loan.

4.   LOANS
     Loans outstanding at December 31, 1999, are scheduled to be repaid as follows:

            2000                                                                                $ 2,208,854
            2001                                                                                  2,223,700
            2002                                                                                  1,568,300
            2003                                                                                  1,087,500
            2004                                                                                    434,500

                                                                                                  7,522,854

            Less: Allowance for loan losses                                                        (178,807)

            Net loans outstanding                                                               $ 7,344,047




                                                    7
     Changes in the allowance for loan losses are summarized below:

                                                                                        1999            1998
       Balance, beginning of year                                                     $ 167,604       $ 145,946
       Provision for loan losses                                                         11,203          21,658
       Balance, end of year                                                           $ 178,807       $ 167,604

5.   CONCENTRATION OF CREDIT RISK

     At December 31, 1999 and 1998, there are no significant concentrations of credit risk in the loan
     portfolio. As discussed in Note 1, the CDRLP provides loans to credit unions that serve predominantly
     low-income communities.

6.   ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in accordance
     with the requirements of Statement of Financial Accounting Standards No. 107, “Disclosures about Fair
     Value of Financial Instruments.” The methods and assumptions used in estimating the fair value
     disclosures for financial instruments are as follows:

     Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents approximate fair
     values.

     Interest Receivable and Accrued Technical Assistance - Are recorded at book values, which
     approximate the respective fair values.

     Loans - The fair value is estimated by discounting projected future cash flows using current market
     interest rates. For purposes of this calculation, the discount rate used was the prime interest rate plus
     two percent (10.5% at December 31, 1999 and 9.75% at December 31, 1998).

     The carrying amount and the estimated fair value of the CDRLP's financial instruments are as follows:

                                                   December 31, 1999                   December 31, 1998
                                                 Carrying    Estimated               Carrying    Estimated
                                                 Amount      Fair Value              Amount      Fair Value
       Assets:
         Cash and cash equivalents           $ 4,320,218      $ 4,320,218        $ 3,043,631      $ 3,043,631
          Interest receivable                $     52,815     $    52,815        $     62,431     $     62,431
          Loans                              $ 7,522,854      $ 6,324,111        $ 7,834,581      $ 6,232,368
          Allowance for loan losses             (178,807)        (178,807)          (167,604)        (167,604)
          Loans, net of allowance            $ 7,344,047      $ 6,145,304        $ 7,666,977      $ 6,064,764
       Liabilities:
         Accrued technical assistance        $ 116,097        $ 116,097          $ 190,560        $ 190,560


     It is the intent of the CDRLP to hold its loans to maturity. The CDRLP anticipates realizing the carrying
     amount in full.

                                                 * * * * *


                                                     8
